Service List
Attorneys for Appellants
Jeffrey B. Wall,
Acting Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Party name: Donald J. Trump, President of the United States et al.
Attorneys for Appellees
Dale E. Ho,
American Civil Liberties Union
125 Broad Street
Director, Voting Rights Project
New York, NY 10004
Phone: 212-549-2693
dale.ho@aclu.org
Party name: New York Immigration Coalition, et al.
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Phone: 212-416-8016
Barbara.underwood@ag.ny.gov
Party name: New York et al. (Government Appellees)

